HHS/OIG, Audit -"Medicare Inpatient Hospital Prospective Payment System Discharges Improperly Reported and Paid After Hospital Consolidations," (A-06-00-00044)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Inpatient Hospital Prospective Payment System Discharges Improperly
Reported and Paid After Hospital Consolidations," (A-06-00-00044)
July 23, 2002
Complete Text of Report is available in PDF format
(585 MB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Under Medicare rules, a consolidation of hospitals is considered a change of
ownership. After a consolidation, only the surviving hospital would be entitled
to Medicare payments because it was the legal owner on the date patients were
discharged. This final report points out that 15 hospitals, that technically
ceased to exist after consolidation with another hospital, were paid for 1,118
discharges that should not have been billed to Medicare. Issues that arise include
potential duplicate payments and inflated cost reports. We have identified claims
overpayments of more than $4.5 million for 6 of the 15 hospitals and will make
appropriate referrals to fiscal intermediaries for recovery. Fiscal intermediaries
have recovered nearly $300,000 related to 2 consolidations and have begun recovery
actions related to 2 additional consolidations. Further, the Department of Justice
has reached settlements totaling nearly $3.2 million related to 5 consolidations.
Among other things, we recommended that the Centers for Medicare & Medicaid
Services (CMS) review current claim, cost report, audit, and change of ownership
instructions to determine whether revisions or additions are necessary to clearly
address proper claim fining and cost treatment when a change of ownership or
consolidation occurs. The CMS concurred with our recommendations.